                        Valuation of RRA Accounts Receivable
                          Report No. 02-10, August 19, 2002

INTRODUCTION

This report presents the results of the Office of Inspector General’s (OIG) audit of the
valuation of Railroad Retirement Act (RRA) program debt as reported on the balance
sheet of the Railroad Retirement Board (RRB) for the fiscal year (FY) ended
September 30, 2001.

Background

The RRB is an independent agency in the executive branch of the Federal government.
The RRB administers the retirement/survivor and unemployment/sickness insurance
benefit programs for railroad workers under the RRA and the Railroad Unemployment
Insurance Act (RUIA). These programs provide income protection during old age and in
the event of disability, death or temporary unemployment and sickness.

During FY 2001, approximately 700,000 annuitants received benefits totaling $8.5 billion
under the RRA. The RRB also paid $94.4 million to the 18,000 individuals qualifying for
unemployment benefits and the 24,000 individuals qualifying for sickness benefits under
the RUIA.

The RRB’s balance sheet for the fiscal year ended September 30, 2001 reported net
receivables due from the public of $43.4 million of which 73% were established under
the provisions of the RRA.

The debt recovery process begins with the recognition that a benefit overpayment has
occurred. In many cases, notice of an event that will affect the benefit payment amount
is received after-the-fact. If the corrected rate is lower than the amount actually paid in
the past, the beneficiary will have been overpaid. The agency then recognizes a debt in
its financial records and takes action to collect the overpayment.

The Bureau of Fiscal Operations has primary responsibility for the RRB’s accounting
operations. Within the Bureau of Fiscal Operations, the Debt Recovery Section (DRS)
has overall responsibility for the RRB’s debt collection activities, including monitoring
the collection status of pending debt and pursuing delinquent debtors.

The Program Accounts Receivable (PAR) system is a mainframe computer application
that supports the agency’s debt recovery operations. It contains the detailed history of
each debt recognized by the RRB including the cause, amount, collections, outstanding
balance, and final disposition.

This study addresses areas of management performance that support the RRB’s
strategic goal of safeguarding agency trust funds through prudent stewardship.




                                             1

Objective, Scope And Methodology

The objective of this project was to determine whether the RRB’s financial statements
reported RRA program accounts receivable at a reasonable estimate of their net
realizable value.

The scope of this audit was RRA program overpayments for which the agency reported
an uncollected balance as of September 30, 2001.

In order to accomplish this objective, we:

       •   prepared and analyzed an aging of uncollected debt;
       •	 used statistical sampling to estimate the value of accounts receivable at
          September 30, 2001; and
       •	 compared the sample estimate with the net value of RRA accounts receivable
          as reported in the agency’s financial statements.

The sampling methodology used in the audit is presented in Appendix I to this report.

This review was performed in accordance with generally accepted government auditing
standards as applicable to the audit objectives.

This review of accounts receivable did not include tests of the adjudicative accuracy of
the initial overpayment decision. We assessed internal controls only as they specifically
related to the conditions identified during the sample review.

Fieldwork was conducted at RRB headquarters during November 2001 through May
2002.




                                             2

                                 RESULTS OF REVIEW


The RRB’s financial statements reported RRA program accounts receivable at a
reasonable estimate of their net realizable value as of September 30, 2001.

We selected a random sample of 1,000 accounts receivable with uncollected balances
as of September 30, 2001 and estimated the value of each sample item on an individual
basis. The audit assessment included consideration of the age and prior collection
history of the debt as well as subsequent events such as waiver, write-off or tolerance
that might indicate that the amount outstanding would not be collected in full.

Based on the individual account analysis, we estimate that 284 of the 1,000 accounts
reviewed, or 28%, would not be fully collected. Our projection of the sample results to
the population of all RRA Program debt with an uncollected balance at September 30,
2001, estimated the value of that population at $30.4 million. This figure compares
favorably with the $30.2 million reported in the agency’s financial statements. The
sampling methodology and detailed results are presented in Appendices I and II.

Although we have concluded that the allowance for uncollectible accounts reduced the
gross amount of RRA receivables to a reasonable amount at the end of FY 2001, we
cannot conclude that the methodology used to compute that allowance will produce
consistently reliable results in future years. The allowance for uncollectible accounts is
presently computed by applying prior collection experience, as recorded in the PAR
system, to current receivables. Changes in the agency’s debt recognition or record
maintenance policies may affect the ability of the present computational method to
estimate the agency’s exposure to loss from bad debts in future fiscal years.

During our review of sample cases, we identified control weaknesses in the automated
systems that support debt recovery that resulted in:

   •   receivables recognized before a debt had been incurred;
   •   erroneous receivables; and
   •   inconsistencies between the debt recovery and benefit payment records.

Our findings and recommendations for corrective action follow.

ARRC Establishes Some Debts Prematurely

The automated system that recovers benefit payments released after the death of an
annuitant recognizes some debts prematurely.

The Automated Receivables, Reclamations and Credits (ARRC) system is a mainframe
application that identifies benefit payments released after the death of an annuitant.
The ARRC system automatically computes overpayments, creates an account




                                             3

receivable in the PAR system and initiates recovery through the Department of the

Treasury’s (Treasury) reclamation system.1


In some death cases, the ARRC system records an account receivable related to a

payment that has not yet been released. This action occurs when the notice of an

annuitant’s death is received after the RRB’s instructions to pay the next monthly benefit

check have been given to Treasury but prior to the release of the checks. There is a

period of approximately seven business days between the time the agency transmits

check issue instructions to Treasury and the release of regular RRA annuity checks on

the first of the following month.


Accounts receivable arise from claims to cash or other assets.

Prior to release of the benefit payment, the RRB has no claim to cash, only the

expectation of a future claim. The ARRC system was designed to facilitate timely

identification and recording of overpayments due to annuitant death. The system does

not distinguish between overpayments that have occurred versus those that will occur.


Based on the sample result and a supplementary analysis of all outstanding RRA
program debt, we estimate that, as of September 30, 2001, the RRB’s debt inventory
included approximately 1,100 pending reclamations valued at $1.2 million related to
payments that had not yet been released.

The Bureau of Fiscal Operations rejected a prior OIG recommendation to exclude all
pending reclamations from its reported accounts receivable.2

Recommendation

1.	 We recommend that the Bureau of Fiscal operations request that the ARRC system
    be modified to prevent the premature recording of accounts receivable, or that they
    exclude prematurely recorded receivables from agency financial reports.

Management’s Response

The Bureau of Fiscal Operations agrees with the finding and plans to make an
adjustment to exclude these receivables from the RRB’s September 30, 2002 financial
reports.

The full text of the Chief Financial Officer’s response is presented in Appendix IV to this
report.



1
 Reclamation is a process through which Treasury demands return of a payment

from the depositor’s financial institution and credits the proceeds to the

RRB.

2
  The OIG had argued that pending reclamations should not be recognized as

debts because the agency had not yet identified a debtor against whom to

press its claim of recovery. See OIG report number 01-09, July 26, 2001.



                                             4

The ARRC System Establishes Erroneous Receivables

The ARRC system establishes a receivable for payments released after the death of an
annuitant. The RRB should recover only benefit payments to which the deceased
beneficiary was not entitled. However, in some cases, the ARRC system erroneously
initiates recovery of payments to which the beneficiary was entitled at the time of his/her
death.3

ARRC establishes erroneous receivables because it cannot distinguish between
payments to which the deceased annuitant had been entitled during his/her lifetime and
payments relating exclusively to periods after death has ended entitlement to benefits.

The routine creation of erroneous receivables by an automated system works against
economy and efficiency as well as processing accuracy.

Management has advised us that pending changes to the ARRC system are intended to
reduce or eliminate erroneous accounts receivable of the kind identified during this
review. Accordingly, we make no recommendation for corrective action at the present
time.

Management’s Response

The Bureau of Fiscal Operations agrees with the finding. In his response, the Chief
Financial Officer offered his observation that the number of affected cases is relatively
low and currently being corrected manually.

The full text of the Chief Financial Officer’s response is presented in Appendix IV to this
report.


Some Payment Recoveries Are Not Consistently Recorded

The automated systems that support RRA benefit payment operations do not provide
complete, consistent information about returned, reclaimed and cancelled benefit
payments.

We compared PAR system reports of returned, reclaimed and cancelled benefit
payments with information available in the three benefit payment systems that report
historical information: the Payment Rate and Entitlement History (PREH) System; the
Tax Accounting (TAX) System; and the Online Cancelled Payment Data (PAYBACK)
System.




3
  This finding is based on the identification of receivables, initiated by the

ARRC system that had been declared erroneous and removed from collection.



                                             5

Our comparison disclosed that:
   •	 reclaimed checks are recorded only in PREH but not in TAX or PAYBACK
      systems;
   •	 reclaimed electronic fund transfers are not recorded in PREH, TAX, or PAYBACK
      systems; and
   •	 checks that have been cancelled by Treasury because they were not presented
      for payment within 12 months of issue appear in PAYBACK and PREH systems
      but not in the TAX system.
A summary of the number and monetary value of items omitted from each system
during FY 2001 is presented below.

                                   OMITTED RECOVERIES
                           Number of Transactions Monetary Value
           PREH                      2,824             $2.6 Million

           TAX                       4,736             $3.9 Million

           PAYBACK                   4,659             $3.8 Million

Financial management systems should collect accurate, timely, complete, reliable, and
consistent information. The systems that support RRA benefit payment operations were
not designed to provide complete information about returned, reclaimed and cancelled
payments:

      •   TAX, PREH and PAYBACK were developed at different times;
      •	 the TAX system was developed to automate the preparation of year-end tax
         statements and receives only the data required for that purpose;
      •	 the PAYBACK system processes and displays only the selected Treasury
         data that was available electronically at the time the system was placed into
         operation; and
      •	 confirmation of some reclaimed electronic fund transfers has not been
         automated by Treasury and would require manual data input for recording in
         any system.

As a result, the systems that support benefit payment operations, individually or as a
group, do not provide a complete history of returned, reclaimed and cancelled benefit
payments. The inconsistencies across systems create an environment that may be
contradictory and confusing to new or occasional users.

During the audit, the OIG proposed modifying the PREH system to include the
transactions that are presently excluded. However, because Treasury does not confirm
these transactions electronically, each transaction would have to be entered into the
PREH system manually.


                                             6

The Office of Programs believes that the cost of manual data entry would outweigh any
benefit obtained by adding the omitted information to the PREH system. They believe
that it would be more practical to defer modification of the PREH system until Treasury
provides confirmations for these transactions in an electronic format. Unfortunately,
Treasury has not announced plans to automate this data.

Accordingly, the OIG will not formalize a recommendation for corrective action at the
present time.


Inconsistent Reports of Benefit Withholding

The RRB is authorized to recover outstanding overpayments from benefits currently
payable. The agency may withhold a debtor’s monthly benefits, in whole or in part, to
recover an overpayment.

We identified cases in which the accounts receivable system disagrees with the
systems that support benefit payment activities as to the amount of benefits withheld to
satisfy debts.

We performed an additional review of the 299 cases in our sample that were currently
subject to full or partial withholding. We identified 17 debts (6%) in which the PAR
system record disagreed with the benefit payment systems. A list of the exceptions
identified is included as Appendix III to this report.

Lack of Direct Interface

In general, the benefit payment systems and the accounts receivable system disagree
about benefits withheld to satisfy overpayments because the automated systems that
report receivable and benefit payment activity do not communicate directly. An
intermediary system controls the amount of periodic withholding recorded in the PAR
system and the length of time during which withholding will be recorded.

Changes in the annuity or withholding amount that are recorded in the benefit payment
systems after the automated withholding process has been initiated will not be
transmitted to the PAR system without manual intervention. Manual processing that
does not properly include all affected systems will result in discrepancies.

Special Procedures for Full Withholding Cases

Eleven of the 17 debts questioned by the audit were being recovered by full withholding
of the debtor’s annuity.

The Office of Programs has reviewed the cases and believes that these exceptions are
the result of claims examiners who, contrary to applicable procedure, manually updated



                                            7

one or more (but not all) of the automated systems for changes in benefit amounts
during the period of full withholding.

Current procedure does not provide for the re-computation of benefits that have been
suspended-in-full to recover an overpayment. For example, when the full amount of an
annuity is being withheld, annuitants do not receive the annual cost-of-living
adjustments to which they are entitled. Under these circumstances, when the debt has
been fully recovered, the annuity is re-computed, adjustments for all prior periods are
applied and any accrued underpayment is disbursed to the beneficiary. These special
procedures apply to approximately 500 annuities.

In the cases questioned by the audit, it appears that incomplete manual intervention
created discrepant reports of withholding. However, when procedures are properly
followed, the PAR record will agree with the benefit payment systems but the amount
recorded as a recovery in the PAR system each month may not be the full amount of
the beneficiary’s entitlement. As long as the debt remains uncollected, the amount
outstanding is misstated by design.


Recommendation

2.	 We recommend that the Office of Programs modify systems, procedures and
    controls to ensure that the benefit payment systems and the PAR system report
    consistent, accurate information about benefits withheld in satisfaction of debt.


Management’s Response

The Office of Programs generally agrees with the information related to their work.
However, they cannot concur with the recommendation offered by the OIG because the
resources required to implement such extensive system changes would far outweigh
the problems identified in the OIG’s report.

The Office of Programs can include the recommended modifications if and when the
benefit payment and accounts receivable systems are re-written. However, since they
have no specific plans for such an initiative at the present time, they have not provided
a target date for system modifications.

The Office of Programs does plan to analyze the cases cited by the OIG and determine
a corrective action plan to address similar situations in the future. The focus of their
immediate concern is on problems that may cause hardship for their customers. The
Office of Programs expects to develop an action plan by April 30, 2003.

The full text of the Director of Programs’ response is presented in Appendix V to this
report.




                                            8

                                                                            APPENDIX I




                      SAMPLE METHODOLOGY AND RESULTS

We reviewed a random sample drawn from the population of RRA accounts receivable
with uncollected balances as of September 30, 2001.


 Sample Selection

                      Sampling Unit: One Account Receivable

                         Population: Accounts receivable recorded on the PAR system
                                     with uncollected balances as of September 30,
                                     2001
                    Population Size: 11,446 accounts

                   Population Value: $40,410,214

                       Sample Size: 1,000

                      Sample Value: $3,594,613



 Evaluation of the Sample

             Uncollectible Accounts:    284

            Adjusted Sample Value:      $2,654,435


 Projection of the Sample to the Population
                  Confidence Level:     95%

                 Mid-point estimate:    $30,382,658

                         Lower limit:   $26,233,186


Based on the sample results, we can estimate the value of accounts receivable as of
September 30, 2001 at approximately $30.4 million but not less than $26.2 million.

The details of the OIG’s assessment of the collectibility of the 1,000 case sample is
presented in Appendix II.




                                              9

                                                                         APPENDIX II



                   ASSESSMENT OF SAMPLE COLLECTIBILITY


The OIG reviewed 1,000 randomly selected RRA program accounts receivable with an
uncollected balance as of September 30, 2001. The audit assessment included
consideration of the age and prior collection history of the debt as well as subsequent
events such as waiver, write-off or tolerance that might indicate that the amount
outstanding would not be collected in full.


Full Collection Appears Doubtful                                       Sample Items

Receivable recorded in September 2001 for an October
                                                                        101        10%
disbursement.

Balance includes an erroneous amount.                                    43         4%


The debt duplicates another PAR entry.                                     2

Debt recognized in 1996 or earlier with no collections other than
                                                                         64         7%
initial reclamations and/or returned checks.

The debtor of record is deceased.                                        42         4%

The debt was recovered prior to October 1, 2001 but the
                                                                         12         1%
recovery not recorded in the PAR system.

Waiver, Tolerance or Write-Off                                           20         2%


                                                                     =====       =====


                                                     SUBTOTAL           284       28%


No Evidence to Suggest that Full Collection was not
                                                                        716        72%
Probable

                                                          TOTAL       1,000      100%




                                          10

We reviewed a random sample of 1,000 RRA program accounts receivable with
uncollected balances as of September 30, 2001. The sample included 299 cases that
were subject to collection by withholding from current, recurring benefits.

For each case, we compared the monthly recoveries as recorded in the accounts
receivable system, with the amounts reported as withheld from annuities by the various
benefit payment systems, primarily TAX. During this review, we identified 17 debts
(6%) in which the PAR system record disagreed with the benefit payment systems.



                                  BENEFITS WITHHELD
                                                                # Months
     Sample      Type of                           TAX          through
     Item       Withholding     PAR System        System        May 2002

     #542          Accrual                  -0-    $1,579.13       N/A


     #665          Partial                  -0-       $73.33         2


     #442          Partial              $85.00         $0.00         5


     #747          Partial            $105.00          $0.00         1


     #898          Partial            $157.00          $0.00         8


     #253            Full               $16.38        $41.38        32


     #269            Full             $234.80        $280.90        77

     #286          Partial            $345.02        $415.44        38


     #522            Full               $68.00        $70.00        13


     #575            Full             $105.44        $100.62        68


     #686            Full             $181.00        $231.00        16


     #85             Full               $60.00        $69.98        40



                                          11

                        BENEFITS WITHHELD
                                                # Months
Sample    Type of                     TAX       through
Item     Withholding   PAR System    System     May 2002
                                                   56
#540        Full            $17.77     $16.26


#628        Full            $91.08     $85.47     245


#718        Full            $10.00     $93.00      16

                                                   15
#748        Full           $108.00     $54.00


#726        Full            $21.99     $32.99     133




                              12

